HHS/OIG-Audit--"Federal Financial Participation in Nebraska's Medicaid Management Information System, (A-07-92-00526)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Federal Financial Participation in Nebraska's Medicaid Management Information
System," (A-07-92-00526)
July 31, 1992
Complete
Text of Report is available in PDF format (1.87 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Nebraska Department of Social Services
claimed Medicaid Management Information System (MMIS) costs of $14.3 million at
the enhanced 75 percent Federal financial participation (FFP) rate. However, claims
totaling $4.9 million (Federal share $1.2 million) were ineligible for the enhanced
rate. In addition to a financial adjustment, we recommended procedural changes
to ensure that only eligible costs are claimed at the enhanced rate of 75 percent.
Regional Health Care Financing Administration officials concurred with our findings
and recommendations.